U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


      GENERAL CONTROLS OVER
  AUTOMATED INFORMATION SYSTEMS,
     OPERATIONS SERVICE CENTER,
      BUREAU OF INDIAN AFFAIRS

              REPORT NO. 97-I-771
                  APRIL 1997
             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240


MEMORANDUM

TO:

FROM:
                           Inspector General

SUBJECT SUMMARY: Final Audit Report for Your Information - “General Controls
                 Over Automated Information Systems, Operations Service
                 Center, Bureau of Indian Affairs” (No. 97-I-771)

Attached for your information is a copy of the subject final audit report. The objective of our
audit was to evaluate the adequacy of general controls over automated information systems
at the Bureau of Indian Affairs Operations Service Center.

We found that the Bureau’s general controls over its automated information systems at the
Center were not effective. Specifically, the Bureau did not: have an effective system security
program and had not enforced personnel policies and procedures to ensure adequate system
security; classify its resources to determine the level of security necessary; monitor visitor
activities and perform adequate housekeeping to safeguard the mainframe computers and
other peripheral devices and media; perform periodic reviews to ensure that users’ access
levels to the mainframe computers were appropriate; ensure that the proper version of an
application was used in production; have segregation of duties for the systems support
functions; have controls over system software to effectively detect and deter inappropriate
use; and have an effective means of recovering or of continuing computer operations in the
event of a system failure. We made 14 recommendations to improve management and
internal controls over the Bureau’s automated information systems at the Center.

The Bureau concurred with 12 of the 14 recommendations, disagreed with 1
recommendation, and did not address 1 recommendation. Based on the response from the
Acting Assistant Secretary for Indian Affairs, we considered 12 recommendations resolved
but not implemented and two recommendations unresolved. We revised one of the
unresolved recommendations and requested that the Bureau provide additional information
on the remaining recommendation, which the Acting Assistant Secretary had not addressed.

If you have any questions concerning this matter, please contact me at (202) 208-5745 or
Mr. Robert J. Williams, Assistant Inspector General for Audits, at (202) 208-4252.



Attachment
                                                                                    C-IN-BIA-009-96A


            United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240
                                                     APR 3 0 1997

                                 AUDIT REPORT


Memorandum

To:        Assistant Secretary for Indian Affairs

From:      Robert J. Williams
           Assistant Inspector

Subject:   Audit Report on General Controls Over Automated Information Systems,
           Operations Service Center, Bureau of Indian Affairs (No. 97-I-771)

                                 INTRODUCTION
This report presents the results of our audit of general controls over automated information
systems at the Bureau of Indian Affairs Operations Service Center. The objective of our audit
was to evaluate the adequacy of general controls over the Center’s mainframe computer
systems and its processing environment in the areas of security program development, access,
software development and change management, segregation of duties, system software, and
service continuity.

BACKGROUND

The Bureau’s Operations Service Center is organizationally under the Bureau’s Office of
Information Resources Management and is located in Albuquerque, New Mexico. The
Center provides computer services such as telecommunications, running applications, systems
recovery, and user support and is responsible for the Bureau’s automated information systems
security. The Center operates all of the Bureau’s major and sensitive mainframe applications
(except for the Federal Financial System), such as the Land Records Information System and
the National Irrigation Information Management System, on an IBM mainframe computer.
The Center also operates major and sensitive mainframe applications of the Office of the
Special Trustee for American Indians, such as the Individual Indian Monies System, on a
UNISYS mainframe computer. The Center processes approximately 2.5 million transactions
weekly.

The IBM computer is used as a link between many of the area and agency offices and the
Bureau’s Federal Financial System, located in Reston, Virginia, and as a link to many of the
applications residing on the UNISYS computer. However, during our review, the Bureau and
the Office of the Special Trustee were moving the applications that reside on the UNISYS
computer to the IBM computer.

SCOPE OF AUDIT

We reviewed the Bureau’s general controls that were in place for its automated information
systems. Specifically, we reviewed the general controls at the Operations Service Center and
general controls, such as Bureau policies, that affected the Center’s operations during fiscal
year 1996 and for the two months of fiscal year 1997 (through November 1996). We
reviewed the controls for security program development, access, software development and
change control, segregation of duties, system software, and service continuity as they related
to the two mainframe computers and to Center operations. However, we did not review the
controls related to the UNISYS computer for software development and change management
and system software because the UNISYS computer applications were being moved to
operate on the IBM computer. To accomplish our objective, we reviewed the Bureau’s
automated information system security program, interviewed Center personnel and
application owners and managers, reviewed systems documentation, observed and became
familiar with Center operations, and analyzed system security.

Our audit, which was conducted during August through December 1996, was made in
accordance with the “Government Auditing Standards,” issued by the Comptroller General
of the United States. Accordingly, we included such tests of records and other auditing
procedures that were considered necessary under the circumstances,

As part of our review, we evaluated the internal controls that could adversely affect the
Center’s data processing environment. The control weaknesses that we found are discussed
in the Results of Audit section of this report, If implemented, the recommendations should
improve the general controls.

PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office has not issued any reports related to
the Bureau’s automated information systems. However, in December 1996, the Office of
Inspector General issued the audit report “Statement of Assets and Trust Fund Balances at
September 30, 1995, of the Trust Funds Managed by the Office of Trust Funds Management,
Bureau of Indian Affairs” (No. 97-I-96) which presented the results of an audit of the Trust
Funds conducted by an independent public auditor. The independent public auditor reported
that material internal control weaknesses existed in computerized systems. Specifically, the
independent public auditor reported that: (1) the physical location of the two mainframes is
a “high risk location” and that only “informal arrangements” have been made with other
Governmental agencies to provide recovery services in the event of a disaster; (2) security
controls over the UNISYS mainframe computer were “inadequate” because “the system does

                                              2
not require automatic password changes periodically, users are not automatically logged out
after a specified period of inactivity, and there is no limit to the number of invalid password
attempts made by a user”; and (3) “changes to the Individual Indian Monies (IIM) application
are not performed in a test environment on the UNISYS mainframe” and “there are no
procedures in place for subsequent review after changes have been implemented.” The report
contained recommendations for the Office of the Special Trustee for American Indians to
correct these deficiencies. In its response, the Office said that these areas were the
responsibility of the Bureau of Indian Affairs and that it had provided, for the Deputy
Commissioner of Indian Affairs consideration, a copy of the Internal Control Report which
made these recommendations. However, the Bureau was not provided an opportunity to
respond to the report. We found that the deficiencies relating to the scope of our current
audit (the location of the two mainframe computers, recovery services, and security controls
over the UNISYS computer) still existed, as discussed in the Results of Audit section of this
report.

                                     RESULTS OF AUDIT

We concluded that the Bureau of Indian Affairs general controls over its automated
information systems at the Operations Service Center were not effective. Specifically, an
effective security program had not been implemented; controls over access, software
development and changes, segregation of duties, and system software were inadequate; and
a service continuity plan had not been developed and implemented. Office of Management and
Budget Circular A-130, “Management of Federal Information Systems,” and National
Institute of Standards and Technology Federal Information Processing Standards Publications
require Federal agencies to establish and implement computer security and management and
internal controls to protect sensitive information in the computer systems of executive branch
agencies.1 Additionally, the Congress enacted laws, such as the Privacy Act of 1974 and the
Computer Security Act of 1987, to improve the security and privacy of sensitive information
in computer systems by requiring executive branch agencies to ensure that the level of
computer security and controls is adequate. However, the Bureau had not complied with the
criteria in that it had not developed a formal, up-to-date, comprehensive system security
program or established formal policies, standards, and procedures for computer operations.
Additionally, the security officer function was not at the appropriate organizational level, and
adequate funding and personnel were not provided to fully support the Center’s mission. The
deficient general controls significantly increased the risk of unauthorized access; modifications
to and disclosure of sensitive data maintained in the Center’s mainframe computers; theft or
destruction of hardware, software, and sensitive data; and the loss of critical systems and
functions in the event of a disaster. In addition, the deficient controls decreased the reliability
of the data maintained on the Center’s computers.


1
 The Computer Security Act of 1987 defines sensitive data as “any information the loss, misuse, or unauthorized
access to or modification of which could adversely affect the national interest or the conduct of Federal programs,
or the privacy to which individuals are entitled under the Privacy Act.”

                                                         3
Overall, we identified 10 weaknesses and made 14 recommendations for improving
management and internal controls for the Bureau’s automated information systems at the
Center. The weaknesses within the six major areas of system security, access, software
development and change controls, segregation of duties, system software, and service
continuity are provided in the following paragraphs, and specific details of the weaknesses and
our respective recommendations to correct these weaknesses are in Appendix 1.

System Security Program

We found that the Bureau did not have an effective system security program and had not
enforced personnel policies and procedures to ensure adequate system security. As a result,
the Bureau increased the risk that mission-based, sensitive computer systems are not
adequately protected and that sensitive data may be impaired or compromised by individuals,
including individuals whose employment has been terminated or who have been transferred.
We made five recommendations to address these weaknesses.

Access Controls
                                                                                                                    2
We found weaknesses in physical and logical access controls over the mainframe computers.
Specifically, the Bureau did not classify its resources to determine the level of security
necessary; monitor visitor activities and perform housekeeping hmctions periodically to
safeguard the mainframe computers, local area network (LAN) equipment, and daily backup
tape libraries at the Center; perform periodic reviews to ensure that users’ access levels to the
mainframe computers were appropriate; and change passwords periodically for access to the
UNISYS computer. As a result, the Bureau increased the risk of unauthorized access and
damage to and the destruction of mainframe computer hardware, software, and data. We
made five recommendations to address these weaknesses.

Software Development and Change Controls

We found that sofiware development and change controls were inadequate to ensure that the
proper version of an application was used in production. As a result, the Bureau increased
the risk of (1) security features being inadvertently or intentionally omitted or turned off and
(2) irregularities or “malicious codes” being introduced.3 We made one recommendation to
address this weakness.


2Logical access involves the use of computer hardware and software to prevent or detect unauthorized access by
requiring users to input user identifications, passwords, or other identifiers that are linked to predetermined access
privileges.

3The National Institute of Standards and Technology’s handbook, “An Introduction to Computer Security: The
NIST Handbook,” defines “malicious codes” as “viruses, worms, Trojan horses, logic bombs, and other ‘uninvited
software.”

                                                          4
Segregation of Duties

We found that there was inadequate segregation of duties for the systems support functions
in the areas of system design, application programming, systems programming, quality
assurance/testing, library management, change management, data control, data security, and
data administration. As a result, the Bureau increased the risk of (1) implementing improper
program changes and (2) damaging or destroying computer resources. We made one
recommendation to address this weakness.

System Software

We found that the controls established over system software were not effective in detecting
and deterring inappropriate use. Specifically, periodic reviews of the System Maintenance
Facility logs and Resource Access Control Facility (RACF) reports were not performed,
access to the logs and to the RACF reports was not adequately controlled, and the RACF had
not been set up effectively. As a result, the Center incr,eased the risk of not detecting
alterations through normal operating controls, We made one recommendation to address this
weakness.

Service Continuity

We found that the Center did not have an effective means of recovering or of continuing
computer operations in the event of a system failure or a disaster. Specifically, the Center did
not have a service continuity plan, and the off-site storage facility, which houses backup
information such as software applications, databases, and data, was not located at least 1 mile
away from the Center, was not secure, and was not environmentally protected. As a result,
the Center may not be able to recover or resume critical computer operations in the event of
a system failure or a disaster. We made one recommendation to address this weakness.

Bureau of Indian Affairs Response and Office of Inspector General Reply

In the March 19, 1997, response (Appendix 2) from the Acting Assistant Secretary for Indian
Affairs to the draft report, the Bureau concurred with 12 of the draft report’s 14
recommendations, disagreed with 1 recommendation, and did not specifically address 1
recommendation.

In its response to Recommendation A.2 in our draft report, the Bureau stated that the
recommendation “would be appropriate” if the Bureau were to continue to operate mainframe
data processing.” The Bureau huther stated, “Since that function will be transferred to
U.S.G.S. [U.S. Geological Survey], we believe that the Bureau Security Officer and his staff
will be able to manage the reduced security requirements of the Albuquerque OIRM [Office
of Information Resources Management] site.” We agree that if the Bureau transfers the data
processing function to the U.S. Geological Survey, the recommendation is not needed.

                                               5
Therefore, we have eliminated Recommendation A.2 from the final report and have
renumbered Recommendations A.3 and A.4 from our draft report accordingly. However, a
separate security function would be required at the Center should data be processed by the
Center after mainframe data processing ceases.

Regarding Bureau plans for automated information systems, the Bureau stated that, because
of the transfer of mainframe data processing from the Bureau to the U.S. Geological Survey
beginning in July 1997, the Office of Information Resources Management will be reorganized
or positions will be redefined by October 1, 1997, and implemented by December 1, 1997.
Because of the transfer of mainframe data processing, according to the Bureau,
recommendations applicable to physical controls, user access, access to the UNISYS
computer, segregation of duties, and systems software will be implemented through the
actions taken as part of the conversion. The Bureau further stated that the information
systems security position “will be elevated to report directly” to the Director, Ofice of
Information Resources Management, and that the security officer position will have authority
“extending beyond headquarters operations.” The Bureau also identified the additional duties
of the security officer.

Regarding software development and change control, the Bureau said that it was “expanding
and documenting improved procedures” for controlling software development and changes
to existing software.

Based on the Bureau’s response, we consider Recommendations A. 1, A.2, A.3, B. 1, C. 1,
D. 1, D.2, E. 1, F. 1, G. 1, H. 1, and I. 1 resolved but not implemented. Accordingly, the
unimplemented recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. Also, we request that the Bureau
respond to Recommendation J.l, which the Bureau did not specifically address. (See
Appendix 3 .)

Additional Comments on Audit Report

In the response, the Bureau stated that Audit Report 97-I-90, which we identified in the Prior
Audit Coverage section of our report, had not been “formally transmitted” to the Bureau of
Indian Affairs by the Office of Inspector General and that the Bureau was not provided an
opportunity to respond to the report. The Bureau requested that this fact be noted, and we
have revised our report accordingly. As previously stated, however, the Office of the Special
Trustee for American Indians, to whom Audit Report 97-I-90 was issued, advised that it
provided a copy of the report to the Deputy Commissioner of Indian mairs for consideration.
Neither this fact nor the fact that the audit report identified weaknesses in the Bureau’s
information systems was disputed in the Bureau’s response to this report.

Also, the Bureau said that specific pages of our report “would lead the reader to assume that
Bureau management was solely responsible for the funding and staffing deficiencies within

                                              6
the Office of Information Resources Management which directly contributed to the control
weaknesses identified in the report,” even though the Congress “denied” requested fiscal year
1996 funding increases for the Bureau’s Central Office and reduced the fiscal year 1996
funding level “by approximately 25 percent below” the fiscal year 1995 level. We agree that
the Congress reduced the Bureau’s tinding level; however, it did not specifically identity the
functions within the Central Office that Bureau management should reduce. Considering that
the Bureau recognized that “previous Departmental reviews had determined that OIRM
[Office of Information Resources Management] was significantly underfunded at the pre-1996
levels,” we believe that the Bureau’s decision not to reallocate funding to the Office of
Information Resources Management contributed to the weaknesses identified in our report.

The Bureau also requested that, if the “multiple” recommendations in our report relating to
physical controls, user access, access to the UNISYS computer, segregation of duties, and
system software are referred for tracking of implementation, they should be consolidated into
one recommendation: “migration of mainframe data processing to U.S.G.S. [U. S Geological
Survey] ” However, we cannot comply with this request. While we agree that
implementation action of “conversion of the mainframe data processing to the U.S.G.S. host
computer” would be the first step in correcting the problems identified, other corrective
actions are needed to fully implement the multiple recommendations. We therefore will refer
all of the recommendations separately for tracking of implementation.

In accordance with the Departmental Manual (360 DM 5.3) we are requesting a written
response to this report by May 30, 1997. The response should provide the information
requested in Appendix 3.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau personnel in the conduct of our audit.




                                              7
                                                                                      APPENDIX 1
                                                                                       Page 1 of 17

    DETAILS OF WEAKNESSES AND RECOMMENDATIONS

 SYSTEM SECURITY PROGRAM

A. System Security Program

Condition:      During fiscal year 1996, the Center did not have a documented security
                implementation plan for the Bureau’s automated information systems.
                Although the Center had developed a security implementation plan by
                November 1996, the plan did not meet the detailed requirements of Office of
                Management and Budget Circular A-130, Appendix III, “Security of Federal
                Automated Information Systems.” For example:

                     - Although users were provided written information about system
                 security issues when access to computer systems and applications was
                 approved, the Center did not have an employee computer security awareness
                 training plan in effect. Further, the security staff had not provided periodic
                 computer security training to Bureau area and agency offices and other
                 organizations, such as schools.

                     - Risk assessments had not been performed periodically or had not been
                 performed when systems, facilities, or other conditions changed. Specifically,
                 since 1990, only two risk assessments had been performed: a risk assessment
                 of the Center’s previous mainframe configuration was performed in 1990, and
                 a risk assessment of the LANs of the Albuquerque Central Offices was
                                      1
                 performed in 1996. While we determined that these assessments were
                 adequate, we also determined that the Center had not implemented
                 recommendations from the risk assessments,

                     - Assessments of the system security program’s effectiveness were not
                 performed periodically. Also, the system security program was not reviewed
                 under the Federal Managers’ Financial Integrity Act annual review process.



1
The Central Offices are administrative offkes such as the Operations Service Center and the Division of
Accounting Management. The Bureau has Central Offkes in Washington, D.C., and in Albuquerque, New
Mexico.

                                                  8
                                                                           APPENDIX 1
                                                                            Page2of17

SYSTEM SECURITY PROGRAM


               - Major systems and applications were not always accredited by the
            managers whose missions they supported.

Criteria:   The Computer Security Act requires Federal agencies to develop and
            implement plans to safeguard systems that maintain sensitive data. Also,
            Office of Management and Budget Circular A-l 30, Appendix III, details what
            should be safeguarded by a system security program and what should be
            included in the security implementation plan. Additionally, the National
            Institute of Standards and Technology’s handbook, “An Introduction to
            Computer Security: The NIST Handbook,” describes a system security
            program as a program that includes security policies and a related security
            implementation plan. According to the handbook, the system security
            program should establish a framework for assessing risk, developing and
            implementing effective security procedures, and monitoring the effectiveness
            of these procedures.

Cause:      Because the Bureau’s automated information system security function was
            within the Center, the function did not have adequate independence and
            authority to implement and enforce a Bureauwide system security program.
            The security staff consisted only of the automated information security officer
            and another staff person. Most of their time was spent in administering
            security at the Center and administering user access to the computer systems.
            Additionally, the 1996 risk assessment recommended that the system security
            function be directly responsible to the Commissioner, Bureau of Indian
            Affairs, which had not been accomplished by the end of our review.
            However, we believe that, at a minimum, the position should be elevated to
            report directly to the Director, Office of Information Resources Management.

Effect:     The lack of an effective system security program prevents assurance that
            established controls can be relied upon to protect mission-based, sensitive
            computer systems.




                                           9
                                                                            APPENDIX 1
                                                                             Page 3 of 17

SYSTEM SECURITY PROGRAM

Recommendations:

We recommend that the Assistant Secretary for Indian AfIairs ensure that:

     1. The automated information system security function is elevated organizationally to
at least report directly to the Director, Office of Information Resources Management; is
formally provided with authority to implement and enforce a Bureauwide system security
program; and is provided staff to perform the required duties, such as providing computer
security awareness training and performing periodic risk assessments.

     2. A system security program is developed and documented which includes the
information required by the Computer Security Act of 1987 and Office of Management and
Budget Circular A-130, Appendix III, and that policies and procedures are implemented to
keep the system security program current.

     3. The Bureau’s security personnel perform risk assessments of the Bureau’s automated
information systems environment and, as appropriate, provide assurance that the necessary
changes are implemented to manage the risks identified.




                                            10
                                                                              APPENDIX 1
                                                                               Page 4 of 17

SYSTEM SECURITY PROGRAM

B. Personnel Security Policies and Procedures

Condition:   Personnel security policies and procedures were not adequate. Specifically:

                 - Personnel in sensitive or critical ADP positions, such as system
             programmers and application programmers (including application
             programmers not assigned to the Center), did not have documented
             background investigations for security clearances or did not have security
             clearances at a level commensurate with their positions.

                 - Although the IBM computer had been set to automatically revoke a
             user identification (ID) after 180 days of inactivity, supervisors did not notify
             the application owner or manager or the Center’s security staff to revoke and
             delete a user ID when an employee’s employment was terminated or an
             employee was transferred.

Criteria:    Office of Management and Budget Circular A-130, Appendix III, requires
             agencies to establish and manage personnel security policies, standards, and
             procedures that include requirements for: (1) screening individuals who
             participate in the design, development, operation, or maintenance of sensitive
             applications or who have access to sensitive data and (2) ensuring that access
             to computer systems is removed when employees terminate their employment
             or when employees are no longer in positions requiring such access.
             Additionally, the Departmental Manual (DM 441, “Personnel Suitability and
             Security Requirements”) requires that background investigations be performed
             for security clearances before employees are placed in sensitive or critical
             ADP positions and that subsequent investigations be performed based upon
             the sensitivity or the criticality of the position.

Cause:       The Bureau had established procedures for requiring background
             investigations for ADP positions that were sensitive and critical. However,
             the procedures were not implemented or enforced. Further, we did not find
             formal policies or procedures, such as requiring the deletion of the user ID
             from the security database during the exit clearance process, that required
             supervisors to not@ the application owner or manager or Center security staff


                                            11
                                                                              APPENDIX 1
                                                                               Page 5 of 17

SYSTEM SECURITY PROGRAM

               when employees’ employment was terminated or an employee was
               transferred.

Effect:        Without adequate security-related personnel policies, the Bureau increases the
               risk that system operations and data could be impaired or compromised by
               individuals or by employees whose employment has been terminated or who
               have been transferred.

Recommendation:

We recommend that the Assistant Secretary for Indian Affairs ensure that personnel security
policies and procedures are developed, implemented, and enforced, including those for
obtaining appropriate security clearances for personnel in sensitive or critical ADP positions
and for informing the security staff, in writing, whenever employees who are system users
terminate their employment or are transferred.




                                              12
                                                                                APPENDIX 1
                                                                                 Page 6 of 17

ACCESS CONTROLS

C. Resource Classification

Condition:     The Bureau had not classified its computer resources to determine the level
               of security that should be provided by the Center.

Criteria:      The Computer Security Act requires agencies to identify systems that process
               sensitive data. Additionally, Office of Management and Budget Circular A-
               130, Appendix III, directs Federal agencies to assume that all major systems
               contain some sensitive information that needs to be protected but to focus
               extra security controls on a limited number of particularly high-risk or major
               applications.

Cause:         Bureau policies did not specify that: (1) information resources should be
               classified; (2) resource classification categories should be based on the need
               for protective controls; (3) senior-level management should review and
               approve resource classifications; and (4) determinations of resource
               classifications should be documented. Additionally, classification of the
               information resources could not be achieved because a risk assessment (which
               identifies threats, vulnerabilities, and the potential negative effects that could
               result from disclosing confidential data or from not protecting the integrity of
               data supporting critical transactions or decisions) had not been performed
               recently on the mainframe computer applications and system software.

Effect:        If information resources are not classified according to their criticality and
               sensitivity, there is no assurance that the Center was providing the most cost-
               effective means to protect the computer resources.

Recommendation:

We recommend that the Assistant Secretary for Indian Affairs develop and implement policies
to classify the Bureau’s computer resources in accordance with the results of periodic risk
assessments and guidance contained in Office of Management and Budget Circular A-130,
Appendix III.




                                              13
                                                                           APPENDIX 1
                                                                            Page7of17

ACCESS CONTROLS

D. Physical Controls

Condition:   Physical controls, such as monitoring physical access to the Center and
             performing housekeeping functions for the computer operations room that
             houses the mainframe computers, LAN equipment, and daily backup tape
             libraries, were not adequate. For example:

                 - The Center was located within a Federal building (which also houses
             U.S. Courts) that allows unauthorized individuals access to the Center. To
             ensure that the Center and its resources were safeguarded, physical access to
             the Center was achieved by electronic keycards, and access into the Center
             was monitored by video cameras. However, visitors, such as custodial
             (contractor) personnel and building managers, had been provided the keycards
             and therefore had unmonitored access while in the Center.

                 - General housekeeping and maintenance of the computer operations
             room were performed only weekly. This weekly schedule was inadequate
             because of the failure to remove potential fire hazards caused by combustible
             supplies and by dust produced by paper used in the printer, which was also
             housed in the computer operations room.

Criteria:    The Department of the Interior Automated Information Systems Security
             Handbook, when addressing control for personnel access to computer
             facilities, states:

                 Access by visitors, equipment maintenance personnel, and other
                 individuals not directiy involved with managing or operating a
                 sensitive AIS [automated information system] installation will be
                 controlled by individual authorization. It is recognized that
                 different procedures and restrictions will be required for various
                 categories of visitors; however, all access by other than assigned
                 personnel will be monitored.

             Additionally, the Handbook states that “within the facility, good housekeeping
             and operating procedures are prerequisite to maintaining a noncombustible


                                           14
                                                                                 APPENDIX 1
                                                                                  PageSof

ACCESS CONTROLS

               environment” and that operations such as “bursting and collating,” which
               increase the potential for tire, should be restricted.

Cause:         The Center was understaffed; therefore, Center personnel were not able to
               adequately monitor the activities of visitors. Also, the Bureau had reduced
               funding available to the Center; therefore, more frequent housekeeping
               services could not be obtained.

Effect:        The deficient physical controls increased the risk of unauthorized access and
               damage to and destruction of sensitive hardware, software, and data.

Recommendations:

We recommend that the Assistant Secretary for Indian Affairs ensure that:

     1. Sufficient staff are provided to adequately monitor all visitor activities.

     2. Funding is provided for adequate maintenance of the computer operating room, such
as providing daily housekeeping services, or that fire-producing equipment and supplies are
removed from the computer room.




                                               15
                                                                             APPENDIX 1
                                                                              Page 9 of 17

ACCESS CONTROLS

E. User Access

Condition:     Security staff and application owners did not periodically review user access
               authorizations to ensure that users’ levels of access to the mainframe
               computers were appropriate.

Criteria:      The Center’s policy requires security staff to obtain written documentation
               from supervisory personnel and approval from application owners or
               managers before allowing users access to the mainframe computers.

Cause:         The Center’s policy did not require periodic reviews of users’ access
               authority. In addition, the security function was understaffed and would not
               have been able to adequately perform the periodic reviews. Further, although
               RACF had been set up to automatically revoke user IDS after 180 days of
               inactivity, the IDS were not deleted from RACF because the security staff did
               not receive written notifications when employees terminated their employment
               or were transferred.

Effect:        The Center had no assurance that user access was assigned at the appropriate
               level. Additionally, the Center increased the risk of unauthorized access and
               damage to and destruction of computer hardware, software, and data because
               of the time period between when an employee leaves and when the
               employee’s access is automatically deleted.

Recommendation:

We recommend that the Assistant Secretary for Indian Affairs ensure that policies are
developed and implemented which match personnel files with system users periodically, that
user IDS are deleted from the system for users whose employment has been terminated, and
that verification and approval are obtained from user supervisors and application owners or
managers that the levels of access are appropriate.




                                             16
                                                                             APPENDIX 1
                                                                             Page IO of 17

ACCESS CONTROLS

F. Access to the UNISYS Computer

Condition:    Passwords were not changed periodically, and inactive user IDS were not
              automatically revoked on the UNISYS computer. Additionally, greater
              reliance had to be placed on the user ID and password controls to protect the
              applications, files, and data because the applications residing on the UNISYS
              computer were developed without access controls and could not be modified
              to install the access controls,

Criteria:     The Department of the Interior’s “Automated Information Systems Security
              Handbook” recommends that passwords be changed every 90 days. Also,
              generally accepted industry standards recognize that passwords should be
              changed every 60 to 90 days for users who do not have sensitive privileges
              and every 30 days for users who do have sensitive privileges.

Cause:         The Center has not acquired a security access control software package that
               can automatically require password changes and automatically revoke user
               IDS because the applications running on the UNISYS computer are to be
               moved to the IBM computer.

Effect:        The effectiveness of the password as a control has been diminished, which
               increases the risk of unauthorized access to sensitive production information
               that resides on the UNISYS computer through password disclosure.

Recommendation:

We recommend that the Assistant Secretary for Indian Alfairs ensure that a higher priority
is given to moving the applications that reside on the UNISYS computer to the IBM
computer.




                                            17
                                                                              APPENDIX 1
                                                                              Page 11 of 17

SOFTWARE DEVELOPMENT AND CHANGE CONTROL

G. Software Development and Change Control

Condition:     The software development and change control was inadequate to ensure that
               the proper version of an application was used in production. Based on our
               test of the National Irrigation Information Management System, which was
               managed by the Bureau’s Irrigation and Power Liaison and Control Section,
               we found that the application programmers not only programmed the
               application but also tested, authorized, and approved the movement of the
               modified programs from test or development into production. In addition, the
               lead programmer was not made aware of software modifications. Further,
               one member of the Center’s systems staff could also move application
               software changes from test or development into production without the lead
               programmer’s approval.

Criteria:      The Departmental Manual (DM 385) describes system development life cycle
               management processes and change management controls. The Manual
               requires that a procedure be in place for approval and acceptance of changes
               and that a group or an individual be “responsible for ensuring that all changes
               have been properly evaluated.”

Cause:         The Bureau had not identified who was responsible and accountable for
               controlling application software development and changes.

Effect:        The Bureau increased the risk that security features could be inadvertently or
               intentionally omitted or turned off or that processing of irregularities or
               malicious codes could be introduced. For example, the incorrect version of
               a program could be implemented, which could perpetuate outdated or
               erroneous processing.

Recommendation:

We recommend that the Assistant Secretary for Indian Affairs ensure that policies and
procedures are developed and implemented which clearly identify the individuals responsible
and accountable for application development and changes.



                                             18
                                                                            APPENDIX 1
                                                                            Page 12 of 17

SEGREGATION OF DUTIES

H. Segregation of Duties

Condition:   The duties for the systems support tunctions of system design, application
             programming, systems programming, quality assurance/testing, library
             management, change management, data control, data security, and data
             administration were not adequately segregated between different individuals.
             Specifically, we found that:

                 - System design, systems programming, data security, and data
             administration were accomplished or could be accomplished by one
             system programmer.

                - Quality assurance/testing, change management, data security, and data
             administration could be performed by one system programmer.

                 - Quality assurance/testing, change management, and data administration
             could be performed by the National Irrigation Information Management
             System application programmers.

                - Library management and computer operations were performed by the
             computer operators.

Criteria:    Effective segregation of duties requires that each systems support function be
             performed by a different individual, thus ensuring that no one individual
             controls all critical stages of a process.

Cause:       Center staffing was not sufficient to the extent that the segregation of duties
             could be adequately distributed. Center officials stated that, because of the
             Bureau’s reduced budgetary resources, they were not able to fully staff the
             Center. However, we observed that in some of the functions, such as in
             applications programming, the staff were underutilized and that in other
             functions, the staff, such as computer operators, were utilized to the extent
             that the personnel were required to work overtime to ensure that this function
             was carried out.



                                           19
                                                                          APPENDIX 1
                                                                          Page 13 of 17

SEGREGATION OF DUTIES

Effect:       The lack of segregation of duties increases the risk that improper program
              changes could be implemented and that computer resources could be damaged
              or destroyed.

Recommendation:

We recommend that the Assistant Secretary for Indian Affairs ensure that staffing at the
Center is evaluated and adjusted so that duties for critical system support functions are
adequately segregated and fully utilized.




                                           20
                                                                              APPENDIX 1
                                                                              Page 14 of 17

SYSTEM SOFTWARE

I. System Software Controls

Condition:   The controls established over system software were not effective in detecting
             and deterring inappropriate use. Specifically:

                 - Periodic reviews of the System Maintenance Facility logs and RACF
             access reports were not performed by the security staff to monitor system
             activities. Additionally, the security staff produced reports that identified
             users and the computer resources accessed; however, the staff had not
             produced or used the primary “auditing” or monitoring reports that could be
             used in monitoring system activities,

                 - One system programmer had “alter” access to system software, the
             System Maintenance Facility logs, and RACF logs. With this access, the
             programmer could alter the logging of his activities, as well as any other user
             activities. Thus the audit trails of system activities could be impaired or
             destroyed.

                  - RACF can be used to establish controls and monitor access to the
             computer resources. However, RACF had not been set up to effectively
             control access to the system resources. We found that one of the “start
             procedures” had been assigned the PRIVILEGED attribute. With this
             attribute, the started task can bypass all verification processing, including the
             security classification checks, and therefore affect the overall security of the
             system. Additionally, with the PRIVILEGED attribute, no logging or audit
             trail of this task was available. Further, no datasets, including the system
             parameter library, linklist libraries, master catalog, and the primary and backup
             files, were protected by RACF.

Criteria:    Office of Management and Budget Circular A-130, Appendix III, requires that
             adequate audit trails exist so that an adverse impact on general support
             systems can be prevented or detected. Also, Federal Information Processing
             Publication 41, “Computer Security Guidelines for Implementing the Privacy
             Act of 1974,” provides guidelines for system security and addresses the
             importance of having audit trails of all system activity.


                                            21
                                                                              APPENDIX 1
                                                                              Page 15 of 17

SYSTEM SOFTWARE

Cause:         Because the system programmer was responsible for setting up the IBM
               computer, the Center continued to rely solely on the programmer’s expertise
               to ensure that the system was operating. Additionally, the security staff did
               not fully utilize RACF capabilities to monitor system programmer and system
               access activities.

Effect:        The Center increased the risk of having the computer operating system and
               other computer resources altered without authorization and of not detecting
               the alteration through normal operating controls.

Recommendation:

We recommend that the Assistant Secretary for Indian AtIairs ensure that access and activities
of the Center’s system programmer are controlled and monitored by security staff and that
RACF controls are established to protect system resources.




                                              22
                                                                               APPENDIX 1
                                                                               Page 16 of 17

SERVICE CONTINUITY

J. Service Continuity

Condition:   The Center did not have an effective means to recover or to resume computer
             operations in the event of a system failure or a disaster. Although the Center
             has begun developing a service continuity plan for fiscal year 1997, the Center
             did not have a service continuity plan in place. Additionally, the off-site
             storage facility was not located at least 1 mile from the Center, and the facility
             did not adequately safeguard information and data stored from unauthorized
             access and environmental hazards such as heat or humidity.

Criteria:    Office of Management and Budget Circular A-130, Appendix III, requires
             agencies to establish a comprehensive contingency plan and to periodically
             test the capability to perform the agency function supported by the
             application, as well as critical telecommunications links, in the event of a
             disaster or system failure. In order to accurately and successfully test the
             disaster recovery capabilities, the disaster recovery plan needs to be updated
             as changes occur. Additionally, the National Institute of Standards and
             Technology’s handbook,“An Introduction to Computer Security: The NIST
             Handbook,” recognizes that a comprehensive disaster recovery plan is
             necessary to ensure the timely recovery of all business functions and the
             systems environment, which is critical for day-to-day operations and to
             minimize downtime. The Department of the Interior’s “Automated
             Information Systems Security Handbook” mandates off-site storage “for all
             AIS [automated information systems] installations providing critical support
             to the organization’s missions.” In addition, the National Institute of
             Standards and Technology’s handbook states that a primary contingency
             strategy for applications and data is storage at a secure off-site facility.
             According to the handbook, the secure off-site storage facilities should be
             physically and environmentally protected to prevent unauthorized individuals
             from access and to protect data from heat, cold, or harmful magnetic fields
             and should be located at least 1 mile from the installation.




                                            23
                                                                             APPENDIX 1
                                                                             Page 17 of 17

SERVICE CONTINUITY

Cause:         The Bureau did not ensure that necessary funding was provided to the Center
               to develop a contingency plan and to acquire or contract for an adequate off-
               site storage facility. Before fiscal year 1996, the Center had a contractor-
               developed contingency plan, and the contractor was responsible for
               performing disaster recovery tests, However, in fiscal year 1996, the Bureau
               decreased Center funding, and the contract was not continued. At the time
               of our review, the Center was negotiating for the acquisition of a computer
               site from which to perform disaster recovery testing.

Effect:        The Center increased the risk of being unable to recover and resume critical
               operations should the system fail or disasters occur.

Recommendation:

We recommend that the Assistant Secretary for Indian Atfairs ensure that a contingency plan
is developed and tested and that funding is provided for acquiring a secure off-site storage
facility.




                                             24
                                                                                          APPENDIX 2
                                                                                          Page 1 of 4


                 United States Department of the Interior




Memorandum

To:             Assistant Inspector General for Audits

From:           Acting Assistant Secretary - Indian Affairs

Subject:        Draft Audit Report, “General Controls Over Automated Information Systems,
                Bureau of Indian Affairs,” (Assignment No. C-IN-BIA-009-96A)

The subject audit reviewed the general controls for the automated information systems, specifically
those in place at the Operations Service Center in Albuquerque, NM. We request that a section of
the Draft Report on prior audit coverage be modified, as indicated below and that information be
added to the final report regarding the Bureau’s budget situation.

Prior Audit Coverage

The identification or prior audit coverage includes only, the “Statement of Assets and Trust Fund
Balances at September 30, 1995, of the Trust Funds Managed by the Office of Trust Funds
Management, Bureau of Indian Affairs,” (No. 97-I-96). While we do not dispute the fact that this
audit identified weaknesses in our information systems, we would note that the audit findings were
never formally transmitted to Indian Affairs, as the Office of Trust Funds Management was no
longer part of the Bureau of Indian Affairs when the report was issued; indeed, the Office of
Inspector General issued the audit which contained recommendations for action by the Bureau of
Indian Affairs without either notifying us or allowing us the opportunity to respond. In view of the
fact that normal procedures were not followed by the Office of Inspector General with respect to this
report, we suggest that, at a minimum, this report identify the fact that the BIA was not provided an
opportunity to respond to the report.

Funding and Staffing for the Center

In a number of places, the report would lead the reader to assume that Bureau management was
solely responsible for the funding and staffing deficiencies within the Office of Information
Resources Management which directly contributed to the control weaknesses identified in the report.
For example: “. . . adequate funding and personnel were not provided to fully support the Center’s
mission” (p. 6); the system security program be “provided staff to perform the required duties” (p.
13); “The Center was understaffed. . .” ( p. 18); “. . . the Bureau had reduced funding available to
the Center. . .” (p. 18); “. . . the security function was understaffed. . .” (p. 19); “Center staffing was
not sufficient to the extent that the segregation of duties could be adequately distributed” (p. 22); and
“The Bureau did not ensure that necessary funding was provided to the Center. . .” (p.26).


                                                  25
                                                                                         APPENDIX 2
                                                                                         Page 2 of 4


As part of its action on the FY 1996 budget request, Congress denied all funding increases for
Central Office; required the full absorption of pay cost increases; and also reduced funding for all
BIA Central Office operations by approximately 25 percent below the FY 1995 level. This impacted
all Central Office operations. The Center was particularly hard hit, because as the second largest
headquarters office, their pay absorption was over $800,000. Previous Departmental reviews had
determined that OIRM was significantly underfunded at the pre- 1996 levels. In fact, the FY 1996
budget request had included a total increase over the FY 1995 level of $3.5 million. The net result
of the Congressional actions was that the Office of Information Resources Management was left with
less than 60 percent of the resources that had been identified in the FY 1996 budget request.

We request that the report be revised to reflect the fact that it was action taken by Congress in cutting
the budget request, not management decisions of the Bureau, that resulted in the severe shortage of
staffing and funding for the Office of Information Resources Management.

Current Bureau Plans for Automated Information Systems

In accordance with the Administration’s goal to reduce the number of computer operations centers
across the Federal Government (OMB Bulletin #96-02, Consolidation of Agency Data Centers), the
Bureau has been directed by DO1 to enter into an agreement with the U.S. Geological Survey to
migrate all of the mainframe data processing to their host computer in Reston. The target date for
completion of the transfer is December 1, 1997. In our discussions with OIG staff during and
subsequent to the exit conference, it was generally agreed that in the pending transfer would be
responsive to all of the recommendations contained in the audit with the exception of system
security, personnel security, resource classification, and software development and change control.
These recommendations are separately addressed in our response.

The’ Bureau agrees with the recommendations contained in the draft audit report on Physical
Controls, User Access, Access to the UNISYS Computer, Segregation of Duties, and System
Software. The action that will be taken to implement these recommendations is the conversion of
the mainframe data processing to the U.S.G.S. host computer. The conversion tasks that have been
identified and the schedule for completion of the tasks is attached. Mr. Ed Socks has been
designated as the project leader for the Bureau. Should these recommendations be referred to the
Office of Financial Management for the tracking of implementation activities, we request that the
multiple recommendations contained in the above-mentioned sections be consolidated into one
recommendation: migration of mainframe data processing to U.S.G.S.

Our responses to the other recommendations contained in the report are provided below:

Svstem Securitv Program: We recommend that the Assistant Secretary - Indian Affairs ensure that:

1. The automated information system security function is elevated organizationally to at least report
directly to the Director, Office of Information Resources Management; is formally provided with
authority to implement and enforce a Bureauwide system security program; and is provided staff to
perform the required duties, such as providing computer security awareness training and performing
periodic risk assessments.


                                                   26
                                                                                      APPENDIX 2
                                                                                      Page 3 of 4




Bureau Resnonse: The Bureau concurs with the recommendation. In conjunction with the transfer
of mainframe data processing from the Bureau, some reorganization or redescription of positions
within the Office of Information Resources Management will be necessary. As part of this
reorganization/redescription, the position of Security Officer will be elevated to report directly to
the Director, OIRM. We will treat this position similar to that of the Bureau’s Safety Officer who,
while part of a headquarters organization, has authority extending beyond headquarters operations.
The target date for completion of the reorganization plan is October 1, 1997, with an effective
implementation date of December 1, 1997. Mr. Dale Bajema, Special Assistant to the Assistant
Secretary and Mr. James Cain, Director, OIRM are the responsible officials.

2. A separate security function is established to administer the Center’s security.

Bureau Resnonse: The Bureau does not concur. We believe that this recommendation would be
appropriate if the Bureau were to continue to operate mainframe data processing. Since that function
will be transferred to U.S.G.S., we believe that the Bureau Security Officer and his staffwill be able
to manage the reduced security requirements of the Albuquerque OIRM site.

3. A system security program is developed and documented which includes the information required
by the Computer Security Act of 1987 and Office of Management and Budget Circular A-130,
Appendix III, and that policies and procedures are implemented to keep the system security program
current.

Bureau Resnonse: The Bureau concurs with respect to those functions which will remain the
responsibility of the Bureau subsequent to the transfer of mainframe data processing to U.S.G.S.
(e.g. telecommunications, local area networks and stand-alone microprocessors, and determinations
as to sensitivity of data). The development of the policies and procedures will be the responsibility
of the Bureau Security Officer, Mr. Jerry Belew. The policies and procedures will be completed by
October 1, 1997.

4. The Bureau’s security personnel perform risk assessments of the Bureau’s automated information
systems environment and, as appropriate, provide assurance that the necessary changes are
implemented to manage the risks identified.

Bureau Resnonse: The FY 1996 reduction-in-force eliminated OIRM staff capability to perform risk
assessments. From the resources freed as a result of the transfer of data processing, and as part of
the reorganization/redescription discussed above, positions will be established to perform the
necessary risk assessments. Until such time as the reorganization/redescription is completed, we
cannot identify a responsible official. The risk assessments will commence in July 1998 and the first
assessment of all applications will be completed within 18 months of that date.

Personnel Securitv Policies and Procedures: We recommend that the Assistant Secretary - Indian
Affairs ensure that personnel security policies and procedures are developed, implemented, and
enforced, including those for obtaining appropriate security clearances for personnel in sensitive or
critical ADP positions and for informing the security staff, in writing, whenever employees who are
system users terminate their employment or are transferred.
         *:'( [OFF;.CE OF IBSPECTOX GENERAL NOTE: As stated in our report,
                Reconmeildation A.2 ha:1 brfen deleted, and Reconmendations A.3
                and A.4 have been renumbered as Reconnendations A. 2 and A.3,
                respectively.]
                                               2j
                                                                                     APPENDIX 2
                                                                                     Page 4 of 4


Bureau Resnonse: The Bureau concurs. As a result of the audit, a review was conducted of the
security clearances for those working at Operations Service Center; fully 2/3 did not have up-to-date
clearances. The necessary information will be submitted to the Office of Personnel Management to
conduct/update the clearances of the Operations Service Center staff by June 1, 1997; the responsible
official is Mr. Jerry Belew.

To address the failure to delete user IDS when employees have transferred or have left the Bureau,
two actions will be taken: (1) a report will be provided monthly to the Office of Information
Resources Management of employees who have transferred within the Bureau so that system access
can be reviewed and modified or revoked, if necessary; and (2) a report on employee terminations
will be provided monthly so that system access can be revoked.

The responsibility for providing the reports to the Operations Service Center will be placed with the
Personnel Office of the Office of Surface Mining as part of a reimbursable agreement that is in place
to provide certain personnel support to the Bureau; the Acting Director, Office of Management and
Administration, Mr. Jim McDivitt is responsible for providing this direction to OSM. The
responsibility for revoking/modifying system access based upon the reports received rests with the
Bureau Security Officer, Mr. Jerry Belew.

Resource Classification: We recommend that the Assistant Secretary - Indian Affairs develop and
implement policies to classify the Bureau’s computer resources in accordance with the results of
periodic risk assessments and guidance contained in Office of Management and Budget Circular A-
130, Appendix III.

Bureau Resnonse: This recommendation is essentially the same as the fourth recommendation which
was made in the System Security section of the report. As indicated in our response to that
recommendation, we will begin the risk assessments in July 1998.

Software Development and Change Control: We recommend that the Assistant Secretary for Indian
Affairs ensure that policies andporcedures are developed and implemented w hich clearly identify
the individuals responsible and accountable for application development and changes.

Bureau Response: The Bureau concurs. OIRM is in the process of expanding and documenting
improved procedures in this area. This target date for completion is July 1, 1997; the responsible
official is Mr. Dale Bajema, Special Assistant to the Assistant Secretary.

Any questions regarding the Bureau’s response may be directed to Mr. James Cain, Director, Office
of Information Resources Management.

Attachment

[NOTE:    ATTACHMENT NOT INCLUDED BY OFFICE OF INSPECTOR GENERAL.]




                                                  28
                                                                    APPENDIX 3


        STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference              Status                  Action Required
A.l, A.2, A.3, B.l, C.l,   Resolved; not     No further response to the Office of
D.l, D.2, E.l, F.l, G.l,   implemented       Inspector General is required. The
H.l, and I.1                                 recommendations will be referred to
                                             the Assistant Secretary for Policy,
                                             Management and Budget for
                                             tracking of implementation.

          J. 1             Unresolved        Provide a response to the
                                             recommendation. If concurrence is
                                             indicated, provide an action plan
                                             that includes target dates and titles
                                             of officials responsible for
                                             implementation. If nonconcurrence
                                             is indicated, provide reasons for the
                                             nonconcurrence.




                                        29
              ILLEGAL OR WASTEFUL ACTIVITIES
                  SHOULD BE REPORTED TO
            THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                               Calling:


                   Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-5081 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       l-800-354-0996


                   Outside the Continental United States


                                  Caribbean Retion

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Region

U.S. Department of the Interior                        (700) 550-7428 or
Office of Inspector General                            COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
Toll Free Numbers:
 l-800-424-5081
 TDD l-800-354-0996
                          5
FTS/Commercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420       I
                          c


1849 C Street, N.W.       E
                          c
Mail Stop 5341
Washington, D.C. 20240
